   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General


                                                                         Washington, D.C. 20201




June 25, 2010

TO:             Mary Wakefield, Ph.D., R.N.
                Administrator
                Health Resources and Services Administration


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Results of Limited Scope Review at Circle Family HealthCare Network, Inc.
                (A-05-10-00041)


The attached final report provides the results of our limited scope review at Circle Family
HealthCare Network, Inc.. In accordance with the Recovery Act, the Office of Inspector General
(OIG) will provide oversight of covered funds to prevent fraud, waste and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-05-10-00041 in all correspondence.


Attachment
Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE
 REVIEW AT CIRCLE FAMILY
HEALTHCARE NETWORK, INC.




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-05-10-00041
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                           Notices


      THIS REPORT IS AVAILABLE TO THE PUBLIC
                at http://oig.hhs.gov

   Section 8L of the Inspector General Act, 5 U.S.C. App., requires
   that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

   The designation of financial or management practices as
   questionable, a recommendation for the disallowance of costs
   incurred or claimed, and any other conclusions and
   recommendations in this report represent the findings and
   opinions of OAS. Authorized officials of the HHS operating
   divisions will make final determination on these matters.
                                           INTRODUCTION

BACKGROUND

The Health Center Program

Pursuant to Public Law 104-299, the Health Centers Consolidation Act of 1996, health centers
provide services to a population that is medically underserved. Within the U.S. Department of
Health & Human Services, the Health Resources and Services Administration (HRSA)
administers the Health Center program.

The HRSA health centers are community-based and patient-directed organizations that serve
populations with limited access to health care. The health centers provide comprehensive,
culturally competent, quality primary health care services to medically underserved communities
and vulnerable populations.

Under The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion for health centers and other activities.
HRSA made available four types of grants to health centers to provide for: new access points,
increased demand for services, facilities investment programs, and capital improvement
programs. Grants were provided to new and existing health centers, and a center could have
received more than one type of grant.

Circle Family HealthCare Network

The Circle Family HealthCare Network, Inc. (Circle Family) coordinates with West Suburban,
Bethany, Oak Park, and University of Illinois hospitals to expand services and meet the needs of
the community. Circle Family offers comprehensive medical services as well as counseling and
outreach programs including after-school programs for teens and 24-hour support for mentally ill
clients. For the past 30 years, Circle Family has been serving residents of Chicago’s Westside
communities.

Circle Family is funded primarily through HRSA grants, state grants, local grants, and donations.
During fiscal year (FY) 2009, HRSA awarded two separate two-year Recovery Act 1 grants
totaling $835,374 to Circle Family.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement


1The increased demand for services grant period was from March 27, 2009 through March 26, 2011. The capital
improvement program grant period was from June 29, 2009, through June 28, 2011.



                                                      1
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. Finally, section 330 of the Public Health Service Act defines requirements for
health centers under the Health Center program (42 USCS § 254b).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess Circle Family’s financial viability, capacity to manage and account
for Federal funds, and capability to operate a Community Health Center in accordance with
Federal regulations.

Scope

We conducted a limited scope audit to assess Circle Family’s capacity to manage, account for,
and report Recovery Act funds and to operate a HRSA funded health center in accordance with
Federal regulations. Therefore, we did not perform an overall assessment of Circle Family’s
internal control structure. Rather, we reviewed only the internal controls that pertained directly
to our objective. Our review period was July 1, 2005, through December 31, 2009.

We performed our fieldwork at the Circle Family’s administrative office in Chicago, Illinois
during March 2010.

Methodology

To accomplish our audit objective, we:

   •    confirmed that Circle Family was not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Circle Family’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed the findings related to the most recent HRSA review;

   •    reviewed Circle Family’s policies and procedures related to the Health Center Program;

   •    reviewed Circle Family’s minutes from its Board of Director meetings, and its
        organizational chart;

   •    performed audit steps to assess the adequacy of Circle Family’s current financial systems;
        and


                                                 2
   •   reviewed Circle Family’s audited financial statements and supporting documentation for
       the period of July 1, 2005, through, June 30, 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                    RESULTS OF AUDIT

Based on our assessment, we believe Circle Family is financially viable and has the capacity to
manage and account for Federal funds and to operate its health center in accordance with Federal
regulations.




                                               3
